                                     SOCIAL SECURITY
MEMORANDUM

Date:   March 27, 2009                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: QuickResponse Evaluation - Impact of State Employee Furloughs on the Social
        Security Administration’s Disability Programs (A-01-09-29137)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the impact of State employee furloughs on the Social Security
        Administration’s disability programs.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION
Impact of State Employee Furloughs on
  the Social Security Administration’s
          Disability Programs
             A-01-09-29137




              March 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                              Background
OBJECTIVE
Our objective was to assess the impact of State employee furloughs on the Social
Security Administration’s (SSA) disability programs.

BACKGROUND
SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI) benefit
payments to eligible individuals under Titles II and XVI of the Social Security Act. 1 To
receive either, an individual must file an application with SSA. Once an application is
filed, an SSA field office determines whether the individual meets the non-disability
criteria for benefits, 2 and if so, generally forwards the claim to the disability
determination services (DDS) in the State or other responsible jurisdiction in
accordance with the Social Security Act and Federal regulations for a disability
determination. 3 DDSs are in each of the 50 States plus the District of Columbia and
Puerto Rico.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The expenditures include both costs directly related to claims
processing (such as disability adjudicators’ salaries) and indirect costs. (See
Appendix C for additional information about DDS funding.)

To deal with budget deficits, some States have instituted, or are considering, furloughs
for State employees—including staff at the DDSs, which are 100-percent funded by
SSA. However, Federal regulations state:

          Subject to appropriate Federal funding, the State will, to the best of its
          ability, facilitate the processing of disability claims by avoiding
          personnel freezes, restrictions against overtime work, or curtailment of
          facilities or activities. 4




1
    The Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
2
 For DI benefits, the non-disability criteria include such factors as sufficient earnings, while for SSI
benefits, the non-disability criteria include such factors as citizenship, low income and resources.
20 C.F.R. §§ 404.130 et seq., 404.315, 416.202, and 416.1100 et seq.
3
 The Social Security Act §§ 221(a)(1) and 1633(a), 42 U.S.C. §§ 421(a)(1) and 1383b(a).
20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
4
    20 C.F.R. §§ 404.1621(d) and 416.1021(d).


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                              1
Additionally, on February 3, 2009, California began delaying payments to individuals
who provide consultative examinations and medical records. California also notified
SSA that there would be a 30-day delay in payment (which was due to SSA by
February 26, 2009) of the estimated amount of its March 2009 federally administered
State supplement to SSI recipients. 5

To perform this review, we gathered and reviewed data related to workloads in
FYs 2008 and 2009; interviewed SSA officials to obtain information on SSA’s disability
programs; sent a survey to all DDS Administrators to determine the status of furloughs
and hiring freezes; and calculated the dollar impact of furloughs in California. (See
Appendix B for additional information about our scope and methodology.)

The results presented in this report are a snapshot of what was happening in States
during late February and early March 2009. Because of the current economic crisis
nationwide, other States may impose furloughs and/or hiring freezes and may continue
to do so until their State economies improve.




5
  In addition to the Federal SSI payment, States may provide benefits to their own recipients in
recognition of the variations in living costs from one State to another and for the special needs of some
individuals. California pays a State supplement to almost 900,000 SSI recipients.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                               2
                                                            Results of Review
Furloughs of DDS employees will impact SSA’s ability to process the disability
workload. Additionally, because fewer disability decisions will be made in States with
DDS furloughs, as well as other State budget issues affecting DDS operations, there will
be a negative impact on the flow of money in the U.S. economy.

FURLOUGHS

In Fiscal Year (FY) 2008, SSA spent $1.8 billion funding DDS operations for almost
14,000 DDS employees who processed about 3.6 million disability claims nationwide.
(See Appendix D for a breakout by DDS.) Further, SSA plans to spend about $2 billion
in FY 2009 on DDS operations and expects the DDSs to process almost 4 million
claims. However, SSA’s ability to process this workload will be negatively impacted by
furloughs. As of March 3, 2009, of the 52 DDSs, 6
    •   5 were furloughing,
    •   3 were considering furloughs, and
    •   44 were not furloughing or the DDS was exempt. 7

Of the five States furloughing:
    •   California is furloughing all DDS staff 2 days each month through June 2010. 8
    •   Connecticut had one voluntary furlough day for managers on February 13, 2009.
        Since then, the Governor has extended the request for voluntary furloughs to all
        State employees through June 1, 2009. 9




6
 In addition to the 52 DDSs, Guam and the Virgin Islands also have small disability processing centers
which we did not include in this review.
7
  Of the 44 DDSs, 32 are in States that are not furloughing; 3 are in States that are furloughing, but the
DDS is exempt; and 9 are in States that are considering furloughs but the DDS will likely be exempt or it
is unknown whether the DDS would be exempt.
8
  As of February 17, 2009, California had a tentative agreement with its union to reduce the furloughs
from 2 days to 8 hours per month. The proposal is to not close offices but instead give employees
8 hours of furlough leave per month that could be used the same way that vacation/sick leave is used. As
of March 3, 2009, this tentative agreement had not been ratified, but it is expected to be approved by the
end of March 2009. On March 5, 2009, the Governor of California responded to the San Francisco
Regional Commissioner, and on March 10, 2009, the Director of the Department of Social Services
(parent agency to the California DDS) responded to the Commissioner regarding efforts to exempt the
DDS from furloughs. Both responses indicated the California DDS would be subject to the tentative
furlough agreement.
9
 It is not known whether any Connecticut DDS employees—other than the administrator—have complied
with the Governor’s request for voluntary furloughs.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                                3
      •   Maryland is furloughing 2 unpaid holidays for all State employees and additional
          furlough days for State employees within certain salary ranges through
          June 2009. 10
      •   Massachusetts is furloughing DDS managers 3 days through June 2009. 11
      •   Oregon is furloughing DDS managers from 1 to 4 days, depending on salary
          range, through June 2009. 12

These five States represent over 15 percent of the national DDS workload each year.
See the map below13 and Appendix E for details of the furlough status for the 52 DDSs.

                                    Furlough Status by State




                  DDSs Furloughing
                  States Furloughing- DDS Exempt
                  States Considering Furloughs- DDS Not Likely Exempt
                  States Considering Furloughs- DDS Likely Exempt or Unknown
                  No Furloughs
10
  In Maryland, employees with salaries of $40,000 to $59,999 will have 2 furlough days, and employees
with salaries of $60,000 and over will have 3 furlough days. These furlough days must be taken by
June 30, 2009.
11
  In Massachusetts, the DDS managers can work the furlough days and be compensated after retirement
or they can work without pay.
12
     In Oregon, the Governor is proposing furloughs for other DDS staff up to 26 days.
13
 Alaska, Hawaii, and Puerto Rico do not appear on the map. Hawaii was considering furloughs but the
DDS was likely exempt. Alaska and Puerto Rico were not furloughing.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                           4
Dollar Impact of Furloughs on Economy

In FY 2008:
         SSA issued over $142 billion in DI and SSI payments to more than 14 million
          individuals. The majority of these beneficiaries and recipients were found
          disabled by the DDSs.
         The DDSs handled more than 3.6 million claims. The DDSs allowed
          36.0 percent of claims at the initial level and 13.8 percent of claims at the
          reconsideration level of appeal.
         DDSs processed initial DI and SSI claims in 81 days, on average.

In FY 2009 (through February 2009), DDS initial claims receipts have increased almost
10 percent over the same period last year. Nationwide, SSA expects applications for
benefits to increase 12 percent by year-end. (See Tables D-3 and D-4 in Appendix D
for statistics and costs by DDS.)

Furloughs will impact the number of disability determinations the DDS will make in
FY 2009, including the number of claims allowed. For example, the California DDS will
encounter a shortfall of capacity by 10 percent due to furlough days. As a result, we
expect approximately 2,375 disability cases would be delayed in processing per month.
This would translate into about 776 allowances. Therefore, we estimate that about
$648,000 in benefits will be delayed in being paid to newly disabled claimants and from
flowing into the economy on a rolling monthly basis. (See Appendix F for more details.)

Further, since January 1, 2009, the California DDS’ initial claims pending has increased
9.7 percent, and its reconsideration claims pending has increased 16.1 percent, as a
result of increased applications and the furloughs. Therefore, claimants will have to wait
longer for disability decisions.

Continuing Disability Reviews

SSA conducts periodic continuing disability reviews (CDR) to ensure that only those
beneficiaries who remain disabled continue to receive benefits. Most CDR cases that
are profiled as having a high likelihood of medical improvement are sent to the DDS for
a full medical review. The DDS is also responsible for processing all CDRs for SSI
disabled children and in all cases where there has been a report of medical
improvement.

In FY 2007, DDS employees processed 189,955 medical CDRs and ceased benefits in
52,490 cases. SSA estimates that for FY 2007, the ratio of program savings to
administrative costs was approximately $12 to $1. 14 However, furloughs will have a
direct impact on processing these CDRs—resulting in ongoing DI benefits and SSI
payments to individuals who would no longer be eligible based on the CDR.

14
     SSA, Annual Continuing Disability Review Report to Congress, November 17, 2008.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)             5
Compassionate Allowances

SSA implemented its Compassionate Allowance (CAL) initiative in October 2008—
designed to quickly identify those cases where the claimant’s medical condition
invariably qualifies under the Listing of Impairments based on minimal, but sufficient,
objective medical evidence. 15

Cases selected for CAL processing receive priority at all adjudicative levels and are
handled by the most experienced disability examiners. Furloughs of DDS employees
will negatively affect CAL claims by delaying the processing of these claims.

Informal Remand Processing

When a claim for disability benefits is denied, the claimant can appeal the
determination. 16 As part of the appeal, the hearing office can return a claim to the DDS
for review of the previous determination, in what is sometimes called an informal
remand (IR). The DDS then conducts a pre-hearing case review. Cases selected for IR
are initial claims in which there is a strong likelihood that the DDS will revise its
determination to be wholly or partially favorable to the claimant. 17

A special DDS IR initiative began in June 2007 to assist in reducing the backlog of
appealed cases. According to SSA, the results have been positive and exceeded
expectations. In FY 2008, DDSs processed over 52,000 IRs. In FY 2009, DDSs have
processed over 15,000 IRs and revised the determinations in about 4,500 of these
claims (through January 30, 2009). The IR initiative has been extended through
FY 2009. 18

As a result of furloughs, the California DDS may not be able to continue processing IRs.
This would have a negative impact on SSA’s plan to reduce its backlog of cases waiting
for a hearing, as well as delaying payment to some deserving individuals.




15
     SSA, POMS, DI 23022.015.
16
  If the applicant disagrees with the DDS’ initial disability determination, he or she can file an appeal
within 60 days of the date of notice that notified the individual of the determination. In most cases, there
are four levels of appeal, including a: (1) reconsideration by the DDS, (2) hearing by an administrative law
judge, (3) review by the Appeals Coucil and (4) review by the Federal courts. The reconsideration step of
the appeals process is eliminated for DDSs participating in the Disability Redesign Prototype (Alabama,
Alaska, California—Los Angeles North and Los Angeles West Branches, Colorado, Louisiana, Michigan,
Missouri, New Hampshire, New York and Pennsylvania).
17
     SSA, POMS, GN 04440.247.
18
   SSA, Office of Disability Adjudication and Review, Plan to Eliminate the Hearing Backlog and Prevent
its Recurrence, Annual Report, FY 2008.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                              6
OTHER ISSUES IMPACTING DDS PROCESSING

In addition to furloughs, other issues, such as hiring freezes, attrition rates, and State
budget shortfalls, will impact the DDSs’ ability to process workloads.

Hiring Freezes

Of the 52 DDSs,
     •   5 had hiring freezes,
     •   1 was considering a hiring freeze, and
     •   46 did not have hiring freezes or the DDS is exempt. 19

For example, the Indiana DDS reported that it had a hiring freeze. The State had
deactivated positions in the DDS that could not be filled. The deactivations affected
approximately 30 disability examiner positions, and several other positions including
supervisory and professional positions, the Senior Medical Doctor, and quality
assurance positions. In FY 2009, Indiana’s initial claims pending has increased
4.4 percent. (See Appendix E for status of hiring freezes by DDSs.)

Attrition Rate

The attrition rate for DDS disability examiners was 12.5 percent in FY 2008 and
9.8 percent in FY 2009 (as of February 2009). 20 (See Table D-5 in Appendix D for
attrition rates by DDS.) In a 2004 report, we found that lower-performing DDSs had
higher rates of disability examiner attrition and fewer examiners in relationship to total
staff than their higher-performing DDS counterparts. 21 These issues may become more
of an obstacle to SSA processing disability workloads if furloughs continue.

California Budget Issues

Because of budget shortfalls, in February 2009, California began delaying payments to
preserve cash flow and prioritize those payments required by the State constitution,
Federal law, or court rulings. DDS operations have been affected by these delayed
19
   Of these 46 DDSs, 19 are in States that do not have hiring freezes; 24 are in States that have hiring
freezes, but the DDS is exempt; and 3 are in States that are considering hiring freezes, but the DDS will
likely be exempt or it is unknown whether the DDS would be exempt. Of the 24 DDSs exempted from
State hiring freezes, 5 reported they were actually under a hiring freeze, but had received some approvals
for hiring.
20
  The attrition rate for all DDS staff was 10.5 percent in FY 2008 and 8.3 percent in FY 2009 (as of
February 2009). The attrition rates for FY 2009 were annualized, based on the average weekly losses
divided by the average weekly staff through February 13, 2009—assuming the rate of loss during this
period will continue unchanged through the remainder of the year. Because attrition can be seasonal,
annualized attrition rates are not completely reliable until the entire year’s data are available.
21
  SSA, OIG, Disability Determination Services Claims Processing Performance (A-07-03-13054),
August 2004.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                           7
payments because the State has stopped paying for the evidence the DDS needs to
make disability determinations—even though SSA reimburses the DDS for these
expenditures up to its approved funding authorization. 22 If the California DDS does not
obtain existing medical evidence or purchase medical examinations that it needs to
make correct determinations, the quality of its disability determinations could suffer.

SSA’s EFFORTS TO ENSURE OPTIMAL DDS PROCESSING

SSA has been proactive in addressing the impact of furloughs. On February 3, 2009,
the Commissioner of Social Security sent a letter to the Chair of the National Governors
Association, urging States to exempt their DDSs from hiring restrictions and furloughs.
In this letter, the Commissioner stated that SSA funds 100 percent of DDS employees’
salaries as well as overhead—about $2 billion nationwide in FY 2009. States cannot
use these funds for any other purpose, so States do not save money by cutting
employees in the DDSs—they only slow getting benefits to the disabled. The
Commissioner also pointed out that States receive significant benefits from the
operation of the DDSs. The faster SSA approves claims for benefits, the sooner many
disability applicants move from State to Federal support. In addition, the salaries for
DDS employees funded by SSA reduce unemployment levels in the States.

Additionally,
     •   The Commissioner of Social Security sent a letter to all State Governors to
         educate them about the SSA Federal/State DDS relationship and reemphasize
         that SSA pays for 100 percent of the costs to process SSA disability workloads.
     •   Over the past 6 months, SSA Regional Commissioners have urged States to
         exempt DDSs from hiring restrictions and furloughs.
     •   SSA staff met with staff members from the House Ways and Means
         Subcommittee, Subcommittee on Social Security regarding the impact of the
         furloughs and hiring freezes on the disability program.
     •   SSA’s Associate Commissioner of Disability Determinations plans to speak at a
         Council of State Administrators of Vocational Rehabilitation conference regarding
         the importance of exempting the DDSs from State-wide hiring restrictions and
         furloughs.




22
  To adjudicate disability claims, the DDS requests—and may pay for—claimants’ medical records and
the results of any diagnostic tests or procedures that have been performed. If additional evidence is
needed, the DDS may purchase medical examinations, including psychiatric and psychological
examinations, X rays and laboratory tests (including specialized tests, such as pulmonary function
studies, electrocardiograms, and stress tests) from an independent medical source.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                           8
                                   Matters for Consideration
Furloughs and other DDS issues, such as hiring freezes, will impact SSA’s disability
programs as well as the flow of money in the economy. The decision to furlough DDS
employees means the processing of disability workloads will be delayed. Also, DDSs
will not be able to respond to the growing demand for their services if they are unable to
hire sufficient staff or if existing staff are told not to report for work.

Since SSA funds 100 percent of DDS employees’ salaries as well as overhead, and
these funds cannot be used by the States for any other purpose, there is no cost
savings to the States who furlough DDS employees. Furloughs and other budget
issues—including hiring freezes—slow the processing of claims for disability benefits
and reduce the flow of those benefits into the economy. Therefore, SSA should
continue to urge States to ensure DDSs are operating at full capacity or pursue other
options to avoid these delays by shifting work away from States that are implementing
furloughs.

                  Options for Addressing Impact of DDS Furloughs
           Option                        Positives                         Negatives
Work with States to exempt      Will eliminate all impacts of
DDS employees from              State furloughs.
furloughs.
Work with furloughing States    Will partially reduce the       Medical consultants/contractors
to allow DDS employees to       impact of furloughs—            do not traditionally work
work more hours on non-         depending on number of          overtime so there may be
furlough days.                  hours worked.                   personnel restrictions about
                                                                working additional hours.
Transfer work to Federal        Will partially reduce the       Will not fully address impact of
disability examiners (in        impact of the furloughs—        the furloughs.
Regions or in Headquarters).    depending on the availability   May reduce the Federal
                                of Federal disability           disability examiners’ ability to
                                examiners to take on            help other DDSs.
                                additional work.
                                                                Transfer of claims would
                                                                involve administrative planning
                                                                and resources.
Transfer work to other State    Will partially reduce the       Will not fully address impact of
DDSs that are not               impact of the furloughs—        the furloughs and may impact
furloughing.                    depending on the availability   other DDSs’ ability to complete
                                of other DDSs to take on        their own workloads.
                                additional work.                Transfer of claims would
                                                                involve administrative planning
                                                                and resources.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                      9
                    Options for Addressing Impact of DDS Furloughs
            Option                          Positives                        Negatives
Hire retired DDS and              Will partially reduce the        Will not fully address impact of
Disability Quality Branch         impact of the furloughs—         the furloughs.
(DQB) disability examiners as     depending on the availability    Will require refresher training
rehired annuitants on contract    of retired examiners to          and possible enhanced quality
(in Regions or Headquarters).     perform work.                    reviews of these disability
                                                                   determinations.
Allow current SSA employees       Will partially reduce the        Will not fully address impact of
who used to work as disability    impact of the furloughs—         the furloughs.
examiners in DDS or DQB to        depending on the availability    Will require refresher training
work disability claims on         of former examiners to           and possible enhanced quality
overtime (in Regions or           perform work.                    reviews of these disability
Headquarters).                                                     determinations.
Contract disability claims out    Will reduce the impact of        May require legislative and
to private companies.             furloughs and allow for          regulatory authority.
                                  future flexibility in handling   May not be cost effective and
                                  future DDS backlogs.             may require an assessment to
                                                                   determine if contracting for
                                                                   these services is permissible.
                                                                   Note: this work has been
                                                                   identified by SSA as ‘inherently
                                                                   governmental activity’ and
                                                                   therefore exempt from
                                                                   competitive contracting. 23
                                                                   Will require oversight of the
                                                                   contract(s) and possible
                                                                   enhanced quality reviews of
                                                                   these disability determinations.
Take over State DDS               Will eliminate all impacts of    Would require legislative and
Operations (Federalize the        State furloughs and give         regulatory changes.
DDSs).                            SSA complete control over        Will require significant
                                  its disability determinations.   administrative and planning
                                  SSA could achieve savings        resources.
                                  by maintaining one case          Will impact SSA’s costs for
                                  processing and fiscal            disability determinations. For
                                  system rather than               example, Federal salaries for
                                  supporting separate              disability examiners may be
                                  systems for each DDS.            higher than some State salary
                                                                   rates.




23
 Office of Management and Budget, Circular. A-76: Performance of Commercial Activities,
May 29, 2003.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                      10
                                                                Other Matter
California delayed paying its estimated share of the March 2009 federally administered
State supplement to SSI recipients (which was due to SSA by February 26, 2009)—
approximately $286 million paid monthly to almost 900,000 recipients—and
administrative fees estimated at $13 million. SSA issued these supplemental payments
on behalf of the State, but California is required to reimburse SSA for the State
supplement payments and fees in addition to interest charges accruing on the late
payments.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)       11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Disability Determination Services Funding
APPENDIX D – Disability Statistics by Jurisdiction
APPENDIX E – Furlough/Hiring Freeze Status by Disability Determination Services
APPENDIX F – Methodology of Furlough Impact
APPENDIX G – OIG Contacts and Staff Acknowledgments




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)
                                                                         Appendix A

Acronyms
 CAL                   Compassionate Allowance
 CDR                   Continuing Disability Reviews
 C.F.R.                Code of Federal Regulations
 DDS                   Disability Determination Services
 DI                    Disability Insurance
 DQB                   Disability Quality Branch
 FY                    Fiscal Year
 IR                    Informal Remand
 OMB                   Office of Management and Budget
 Pub. Law No.          Public Law Number
 SSA                   Social Security Administration
 SSI                   Supplemental Security Income
 U.S.C.                United States Code




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)
                                                                         Appendix B

Scope and Methodology
To accomplish our objective, we:

      Reviewed applicable sections of the Social Security Act and Social Security
       Administration (SSA) regulations, policies and procedures.

      Researched prior reports issued by the Office of the Inspector General.

      Reviewed continuing disability review data.

      Reviewed National Disability Determination Services (DDS) Performance
       Summary reports for Fiscal Years (FY) 2006 through 2008.

      Gathered and reviewed data related to anticipated DDS workloads in FY 2009.

      Interviewed SSA officials to obtain information on SSA’s disability programs.

      Sent a survey to all DDS administrators to determine the status of furloughs and
       hiring freezes.

      Calculated dollar impact of furloughs in California.

We performed our review in February and March 2009 in Boston, Massachusetts. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)
                                                                                      Appendix C

Disability Determination Services Funding
The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the Disability Insurance (DI) and Supplemental
Security Income (SSI) programs. The DI program provides benefits to wage earners
and their families in the event of disability. The SSI program provides benefits to
financially needy individuals who are aged, blind or disabled. Additionally, States have
the option of supplementing their residents' SSI payments and may choose to have the
additional payments administered by SSA.

Disability determinations under both the DI and SSI programs are performed by
disability determination services (DDS) in each State or other responsible jurisdiction in
accordance with the Social Security Act and Federal regulations. 1 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, X rays and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. 2 The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payment system to pay for program
expenditures. Funds drawn down must comply with Federal regulations 3 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 4 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget (OMB) Circular A-87. At the end of each quarter of the Fiscal Year, each
DDS submits a Form SSA-4513, State Agency Report of Obligations for SSA Disability
Programs, to account for program disbursements and unliquidated obligations.




1
 The Social Security Act §§ 221(a)(1) and 1633(a), 42 U.S.C. §§ 421(a)(1) and 1383b(a).
20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
 Expenditures include direct and indirect costs. Direct costs can be identified specifically with a particular
cost objective. Indirect costs arise from activities that benefit multiple programs but are not readily
assignable to these programs without effort disproportionate to the results achieved. (OMB Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments, Attachment A, §§ E.1 and F.1)
3
    31 C.F.R. § 205.1 et seq.
4
 Pub. Law No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.
Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)
                                                                               Appendix D

Disability Statistics by Jurisdiction
Table D-1 shows the number of all Disability Insurance (DI) beneficiaries and their
dependents as of December 2007, and the estimated total annual benefits paid to those
individuals. 1

                        Table D-1: December 2007 DI Statistics by Jurisdiction
                                                                            Annual
                                              Disabled
                            Jurisdiction                    Dependents   Benefits Paid
                                            Beneficiaries
                                                                         (in millions)
                 Alabama                         211,668        50,792         $2,542
                 Alaska                           11,737         2,711           $147
                 Arizona                         143,125        32,475         $1,872
                 Arkansas                        130,110        31,368         $1,534
                 California                      675,491       140,871         $8,430
                 Colorado                         88,431        17,940         $1,107
                 Connecticut                      81,921        17,870         $1,030
                 Delaware                         25,412         5,515           $334
                 District of Columbia             12,328         1,706           $129
                 Florida                         466,830        98,148         $5,848
                 Georgia                         242,033        53,975         $2,923
                 Hawaii                           22,881         4,810           $285
                 Idaho                            36,685         8,773           $447
                 Illinois                        281,168        61,593         $3,441
                 Indiana                         178,959        41,307         $2,178
                 Iowa                             73,818        15,079           $846
                 Kansas                           65,692        14,080           $780
                 Kentucky                        198,836        48,592         $2,392
                 Louisiana                       145,689        38,292         $1,700
                 Maine                            56,646        13,632           $652
                 Maryland                        111,716        21,724         $1,402
                 Massachusetts                   188,613        45,137         $2,307
                 Michigan                        303,099        69,424         $3,852
                 Minnesota                       113,489        23,931         $1,375
                 Mississippi                     129,993        33,551         $1,503
                 Missouri                        197,456        44,502         $2,374
                 Montana                          25,601         5,107           $302

1
    SSA, Annual Statistical Supplement, 2008.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)            D-1
                     Table D-1: December 2007 DI Statistics by Jurisdiction
                                                                          Annual
                                           Disabled
                         Jurisdiction                    Dependents    Benefits Paid
                                         Beneficiaries
                                                                       (in millions)
              Nebraska                         40,203         8,912            $462
              Nevada                           53,086        10,613            $718
              New Hampshire                    40,178        11,226            $530
              New Jersey                      188,202        41,653          $2,523
              New Mexico                       56,661        12,777            $674
              New York                        503,928       116,553          $6,389
              North Carolina                  305,284        63,319          $3,707
              North Dakota                     14,332         2,678            $156
              Ohio                            306,402        63,552          $3,555
              Oklahoma                        117,499        25,340          $1,396
              Oregon                           92,712        16,449          $1,143
              Pennsylvania                    375,865        85,898          $4,590
              Rhode Island                     34,831         7,515            $417
              South Carolina                  159,995        33,738          $1,956
              South Dakota                     18,186         3,557            $200
              Tennessee                       226,309        49,070          $2,668
              Texas                           500,548       120,629          $6,034
              Utah                             39,327        10,350            $483
              Vermont                          20,183         4,613            $232
              Virginia                        203,412        46,039          $2,537
              Washington                      152,960        29,269          $1,915
              West Virginia                   101,006        23,912          $1,271
              Wisconsin                       141,085        30,001          $1,686
              Wyoming                          11,507         2,299            $142
              American Samoa                    1,269           763             $13
              Guam                              1,493           617             $16
              Northern Mariana Islands            249            79              $2
              Puerto Rico                     171,528        48,729          $1,752
              U.S. Virgin Islands               2,057           579             $24
              Foreign countries                18,658         3,857            $162
              Total                         8,118,382      1,817,491        $99,086




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)          D-2
Table D-2 shows the number of disabled Supplemental Security Income (SSI) recipients
and the amount they received in December 2007. 2

                   Table D-2: December 2007 SSI Disability Statistics by DDS
                                                                  Payments Issued
                                                  Disabled
                             Jurisdiction                        in December 2007
                                                 Recipients
                                                                   (in thousands)
                  Alabama                              149,835            $73,740
                  Alaska                                 9,419             $4,803
                  Arizona                               87,377            $44,118
                  Arkansas                              87,126            $42,598
                  California                           880,384           $572,476
                  Colorado                              49,810            $25,185
                  Connecticut                           47,551            $23,812
                  Delaware                              13,191             $6,510
                  District of Columbia                  20,043            $11,006
                  Florida                              332,257           $166,921
                  Georgia                              182,111            $91,775
                  Hawaii                                16,983             $9,271
                  Idaho                                 21,903            $10,934
                  Illinois                             231,486           $120,076
                  Indiana                               98,796            $50,738
                  Iowa                                  41,259            $19,276
                  Kansas                                37,191            $18,758
                  Kentucky                             171,464            $84,209
                  Louisiana                            146,498            $71,919
                  Maine                                 31,112            $15,052
                  Maryland                              82,871            $44,331
                  Massachusetts                        133,412            $72,695
                  Michigan                             211,535           $112,914
                  Minnesota                             68,050            $34,158
                  Mississippi                          109,470            $52,879
                  Missouri                             113,037            $55,475
                  Montana                               14,538             $7,097
                  Nebraska                              20,991            $10,158
                  Nevada                                26,757            $14,050
                  New Hampshire                         14,315             $7,141
                  New Jersey                           122,336            $63,451
                  New Mexico                            47,997            $23,701


2
    SSA, Annual Report of the SSI Program, May 2008.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)       D-3
                Table D-2: December 2007 SSI Disability Statistics by DDS
                                                              Payments Issued
                                             Disabled
                       Jurisdiction                          in December 2007
                                            Recipients
                                                               (in thousands)
               New York                           512,418            $290,622
               North Carolina                     182,300              $88,063
               North Dakota                          7,105              $3,089
               Ohio                               242,832            $127,622
               Oklahoma                             77,798             $39,003
               Oregon                               56,160             $28,526
               Pennsylvania                       306,004            $161,365
               Rhode Island                         27,189             $14,512
               South Carolina                       94,465             $46,262
               South Dakota                         11,391              $5,203
               Tennessee                          148,021              $74,714
               Texas                              436,704            $212,829
               Utah                                 22,130             $11,397
               Vermont                              12,791              $6,418
               Virginia                           120,667              $56,932
               Washington                         106,417              $58,675
               West Virginia                        75,143             $37,483
               Wisconsin                            88,140             $43,592
               Wyoming                               5,438              $2,558
               Northern Mariana Islands               696                $380
               Total                             7,359,525          $3,270,520




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)    D-4
Table D-3 shows workload statistics at Disability Determination Services (DDS) in Fiscal
Year (FY) 2008. 3

                             Table D-3: FY 2008 DDS Workload Statistics
                                                                                     Processing Time
                                Total                                           5         (days)
          DDS                            4        DDS Costs         Employees
                            Dispositions
                                                                                         DI     SSI
    Alabama                      75,641           $41,596,075             342             64     63
    Alaska                        4,831            $3,858,083              20             78     78
    Arizona                      62,330           $29,136,899             223             94     93
    Arkansas                     64,658           $22,902,043             235             63     62
    California                  357,556          $198,593,617           1,310             86     88
    Colorado                     32,609           $18,580,491             133             77     77
    Connecticut                  28,633           $17,616,286             105             72     81
    Delaware                      9,183            $5,988,105              44             97     97
    District of Columbia          8,531            $5,987,299              34             78     77
    Florida                     230,003          $100,169,044             832             80     83
    Georgia                     128,131           $52,448,208             441             88     88
    Hawaii                        9,007            $5,692,256              40             84     92
    Idaho                        16,615            $6,896,280              52             62     62
    Illinois                    144,975           $68,138,817             482             74     76
    Indiana                      87,124           $38,199,876             271             80     84
    Iowa                         29,552           $18,670,523             122             80     83
    Kansas                       31,613           $14,674,611             116             73     71
    Kentucky                     94,093           $39,280,761             385             83     84
    Louisiana                    65,180           $31,999,862             286             67     67
    Maine                        15,172            $7,528,838              61             64     68
    Maryland                     58,763           $27,957,577             225             78     82
    Massachusetts                63,449           $40,453,622             254             71     76
    Michigan                    123,252           $72,179,008             514             83     85
    Minnesota                    50,220           $22,329,232             156             75     77
    Mississippi                  76,320           $25,907,947             260             72     69
    Missouri                     73,447           $29,070,791             274             61     60
    Montana                       9,945            $4,918,848              43             78     81
    Nebraska                     17,334            $9,222,641              78             65     64
    Nevada                       24,140           $11,625,528              98             94     98
    New Hampshire                10,269            $5,274,467              45             91    101
    New Jersey                   79,019           $50,830,026             288            113    113
    New Mexico                   26,783           $12,059,628              86             78     78
    New York                    187,645          $143,994,254             821             78     81

3
    SSA, Office of Disability Determinations, DDS Performance Profiles, February 2009.
4
    The total dispositions show the total number of all DDS cases processed.
5
 This is the actual number of workyears—the equivalent of full-time positions—in each DDS, not the
number of employees.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                        D-5
                          Table D-3: FY 2008 DDS Workload Statistics
                                                                                      Processing Time
                              Total                                             5          (days)
       DDS                             4         DDS Costs          Employees
                          Dispositions
                                                                                        DI       SSI
 North Carolina               125,476            $48,387,556              437            93       94
 North Dakota                   5,563             $2,502,789               25            67       72
 Ohio                         176,252            $75,610,439              570            90       92
 Oklahoma                      54,185            $23,187,209              207            85       85
 Oregon                        39,328            $23,077,980              163            83       87
 Pennsylvania                 142,130            $88,139,201              569            94       94
 Puerto Rico                   27,735            $14,612,254              149           130       ***
 Rhode Island                  12,387             $7,014,615               40           122      131
 South Carolina                68,481            $31,425,550              273            85       86
 South Dakota                   7,477             $3,126,011               28            88       97
 Tennessee                    104,972            $47,283,932              419            92       94
 Texas                        284,578           $122,628,215              974            61       60
 Utah                          16,429             $9,611,617               68            87       90
 Vermont                        5,982             $3,554,829               31            90       92
 Virginia                      76,973            $36,908,443              320            77       78
 Washington                    66,300            $33,329,700              235            74       75
 West Virginia                 40,835            $18,106,038              168            77       77
 Wisconsin                     59,799            $28,344,924              213            78       84
 Wyoming                        3,889             $2,650,167               16            84       88
 Total                        3,614,794          $1,803,283,012          13,604           81      81
 *** SSI is limited to individuals in the United States and does not include Puerto Rico.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                       D-6
Table D-4 shows workload statistics at DDSs in FY 2009 through February 13, 2009. 6

          Table D-4: FY 2009 DDS Workload Statistics (through February 13, 2009)
                                                                                               7
                     DDS             Total Dispositions       DDS Costs          Employees
            Alabama                         31,065          $19,626,485                  354
            Alaska                           1,679           $1,784,998                   20
            Arizona                         24,923          $12,589,918                  220
            Arkansas                        22,592          $10,286,994                  235
            California                     130,358          $87,881,890                 1348
            Colorado                        11,690           $7,896,158                  131
            Connecticut                     11,596           $8,188,136                  106
            Delaware                         3,444           $2,299,154                   41
            District of Columbia             3,845           $3,476,593                   36
            Florida                         98,137          $44,123,056                  853
            Georgia                         46,812          $23,970,738                  449
            Hawaii                           3,607           $2,718,495                   42
            Idaho                            7,704           $3,372,350                   59
            Illinois                        47,506          $30,837,706                  469
            Indiana                         31,895          $17,649,124                  267
            Iowa                            11,706           $9,216,282                  125
            Kansas                          12,172           $7,308,947                  116
            Kentucky                        34,848          $17,064,833                  402
            Louisiana                       25,321          $15,114,625                  291
            Maine                            6,758           $3,580,848                   62
            Maryland                        22,251          $12,513,645                  230
            Massachusetts                   26,979          $18,746,235                  259
            Michigan                        38,792          $33,984,293                  515
            Minnesota                       18,198          $10,013,788                  153
            Mississippi                     29,746          $11,642,615                  268
            Missouri                        28,567          $14,219,616                  282
            Montana                          3,712           $2,276,989                   46
            Nebraska                         6,135           $4,289,616                   79
            Nevada                           8,629           $5,442,370                   99
            New Hampshire                    4,003           $2,358,438                   45
            New Jersey                      28,019          $23,355,258                  277
            New Mexico                       9,325           $5,462,761                   80
            New York                        72,252          $63,809,384                  823
            North Carolina                  48,578          $23,312,987                  443
            North Dakota                     1,945           $1,100,298                   25


6
 SSA, Office of Disability Determinations, February 2009. The DDS costs reflect funding under the
continuing resolution through March 6, 2009. The total dispositions show the total number of all DDS
cases processed in FY 2009, through February 13, 2009.
7
 This is the actual number of work years—the equivalent of full-time positions—in each DDS, not the
number of employees.


Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                          D-7
         Table D-4: FY 2009 DDS Workload Statistics (through February 13, 2009)
                                                                                      7
                   DDS           Total Dispositions     DDS Costs        Employees
           Ohio                        63,693          $34,588,149              585
           Oklahoma                    19,015          $11,031,966              212
           Oregon                      16,062          $10,123,780              171
           Pennsylvania                51,683          $38,149,614              571
           Puerto Rico                 10,428           $6,701,286              146
           Rhode Island                 5,221           $3,429,013               39
           South Carolina              24,750          $13,693,431              284
           South Dakota                 2,625           $1,350,044               29
           Tennessee                   42,384          $22,319,958              435
           Texas                      103,115          $56,191,061              974
           Utah                         6,157           $4,360,241               70
           Vermont                      2,697           $1,654,538               32
           Virginia                    28,188          $16,341,273              324
           Washington                  25,444          $15,392,666              242
           West Virginia               15,318           $8,487,841              172
           Wisconsin                   19,993          $13,436,468              216
           Wyoming                      1,387           $1,139,184               16
           Total                     1,352,949        $819,906,136          13,792




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)             D-8
 Table D-5 shows the attrition rates at DDSs in FY 2008 and FY 2009 (through
 February 13, 2009). 8

                           Table D-5: DDS Attrition Rates FYs 2008-2009
        DDS                               FY 2008                                   FY 2009
                             Examiner                All Staff             Examiner             All Staff
Alabama                             7.6                    6.5                    12.4              7.9
Alaska                             46.5                   27.5                    20.1             25.2
Arizona                            21.4                   14.1                    15.2              7.2
Arkansas                           11.9                    4.9                     6.9              7.0
California                          8.4                    9.4                     7.2              8.7
Colorado                           14.1                    9.7                     4.6              2.1
Connecticut                         4.9                    3.9                     8.5              4.9
Delaware                           24.7                   21.5                    23.2             32.7
District of Columbia                4.2                   12.1                    20.5             15.7
Florida                            19.7                   15.3                     8.7              7.9
Georgia                            19.9                   13.7                    14.6              5.2
Hawaii                              9.1                    4.5                    14.7              7.3
Idaho                              11.8                    9.9                       0                0
Illinois                           13.7                   12.4                    10.4             10.8
Indiana                            15.3                    9.2                    15.4              8.6
Iowa                                0.8                    3.5                     0.0              0.0
Kansas                             12.0                    8.0                     9.4             10.6
Kentucky                           14.9                   14.3                     6.9             10.9
Louisiana                          34.0                   19.9                    35.3             20.5
Maine                              40.4                   18.9                       0                0
Maryland                           16.7                   15.9                    11.7              3.9
Massachusetts                       3.6                    3.4                     1.7             10.4
Michigan                            7.0                    7.1                     7.1              4.5
Minnesota                          11.7                    9.5                     3.3              5.7
Mississippi                        13.9                   10.9                     3.6              2.0
Missouri                           11.4                    5.8                     5.4              5.0
Montana                             2.7                    9.3                    11.5             18.5
Nebraska                           15.2                    9.8                       0                0
Nevada                             16.7                   10.5                    15.8             15.0
New Hampshire                         0                    1.3                       0                0
New Jersey                         12.6                   11.9                     2.7              1.7
New Mexico                          3.5                    6.0                    33.8             10.9
New York                            8.5                    8.3                     5.9              5.8
North Carolina                     13.3                   14.5                    26.1             15.3


 8
   SSA, Office of Disability Determinations, February 2009. The attrition rates for FY 2009 were
 annualized, based on the average weekly losses divided by the average weekly staff through
 February 13, 2009—assuming the rate of loss during this period will continue unchanged through the
 remainder of the year. Because attrition can be seasonal, annualized attrition rates are not completely
 reliable until the entire year’s data is available.


 Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                         D-9
                        Table D-5: DDS Attrition Rates FYs 2008-2009
           DDS                        FY 2008                             FY 2009
                          Examiner              All Staff         Examiner          All Staff
North Dakota                    0.0                   2.3               35.4           36.9
Ohio                            9.8                  10.2               11.8            9.1
Oklahoma                       12.2                   8.0                5.8            3.9
Oregon                         31.4                  17.6               27.8           14.3
Pennsylvania                    9.4                   6.9               19.3           13.5
Puerto Rico                     5.9                   4.0                  0            3.5
Rhode Island                    2.7                  19.7                9.7           20.2
South Carolina                 12.5                  10.1                1.6            4.5
South Dakota                   27.9                  25.7               14.4           19.2
Tennessee                      15.4                  10.8                7.0            6.5
Texas                          10.3                   8.5                9.4            8.6
Utah                            1.5                   9.5                7.5            8.4
Vermont                        10.5                  13.8                  0              0
Virginia                       17.4                  11.2                9.6           12.2
Washington                      8.8                  14.9                4.0            5.4
West Virginia                   9.7                  11.3                2.5            4.2
Wisconsin                       8.9                  10.2               10.8           11.7
Wyoming                        22.7                  23.3                  0              0
National                       12.5                  10.5                9.8            8.3




 Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)            D-10
                                                                          Appendix E

Furlough/Hiring Freeze Status by Disability
Determination Services
Table E-1 shows the results of our survey of each disability determination services
(DDS) administrator to determine each DDS’ furlough and hiring freeze status as of
March 3, 2009.

                 Table E-1: Status of Furlough/Hiring Freeze by DDS

       DDS            Furlough Status            Hiring Freeze Status           Remarks

 Alabama         No furlough.                  No hiring freeze.
 Alaska          No furlough.                  Hiring freeze but DDS
                                               exempt.
 Arizona         Furlough but DDS exempt.      Hiring freeze but DDS
                                               exempt.
 Arkansas        No furlough.                  No hiring freeze.
 California      Furlough in place.            No hiring freeze.        2 days per month—
                                                                        started in
                                                                        February 2009.
 Colorado        Considering furloughs, DDS    Hiring freeze but DDS    Possible furlough of
                 not likely exempt.            exempt.                  DDS employees up to
                                                                        2 days per month.
 Connecticut     Administrator took one        Hiring freeze but DDS
                 voluntary furlough day. The   exempt.
                 governor extended the
                 request for voluntary
                 furloughs to all state
                 employees through June 1.
 Delaware        Considering furloughs but     Hiring freeze but DDS
                 DDS likely exempt.            exempt.
 District of     No furlough.                  No hiring freeze.
 Columbia
 Florida         No furlough.                  No hiring freeze.
 Georgia         Furlough but DDS exempt.      Hiring freeze but DDS
                                               exempt.
 Hawaii          Considering furloughs but     Hiring freeze but DDS
                 DDS likely exempt.            exempt.
 Idaho           Furloughs but DDS exempt.     Hiring freeze but DDS
                                               exempt.
 Illinois        No furlough.                  No hiring freeze.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)               E-1
                 Table E-1: Status of Furlough/Hiring Freeze by DDS

        DDS           Furlough Status           Hiring Freeze Status              Remarks

 Indiana         No furlough.                 Hiring freeze for DDS.        Several positions
                                                                            “deactivated,”
                                                                            including 30 disability
                                                                            examiners. These
                                                                            positions are
                                                                            temporarily eliminated
                                                                            and would require
                                                                            “reactivation” to be
                                                                            filled again.
 Iowa            No furlough.                 Hiring freeze but DDS
                                              exempt.
 Kansas          No furlough.                 Hiring freeze but DDS         “Soft” freeze—hiring is
                                              exempt.                       restricted but occurs
                                                                            as warranted. DDS
                                                                            hired 75 percent of
                                                                            positions.
 Kentucky        No furlough.                 Hiring freeze but DDS
                                              exempt.
 Louisiana       Considering furloughs, DDS   Hiring freeze but DDS         DDS hiring freeze but
                 status not decided.          exempt.                       given a limited number
                                                                            of hires.
 Maine           No furlough.                 Hiring freeze for DDS.
 Maryland        Furloughs in place.          Hiring freeze but DDS         Furlough between
                                              exempt.                       2 and 3 days
                                                                            depending on salary.
 Massachusetts   Furloughs in place.          Considering a hiring freeze   Furloughing 3 days for
                                              and DDS not likely exempt.    DDS managers. Most
                                                                            are going to work the
                                                                            days and be
                                                                            compensated after
                                                                            retirement. They can
                                                                            also work without pay.
                                                                            Hiring cap but DDS is
                                                                            in the process of
                                                                            getting the cap lifted
                                                                            for DDS disability
                                                                            examiner positions.
 Michigan        No furlough.                 No hiring freeze.             Furlough may be
                                                                            possible in 2010.
 Minnesota       No furlough.                 No hiring freeze.
 Mississippi     No furlough.                 No hiring freeze.
 Missouri        No furlough.                 Considering hiring freeze
                                              but DDS likely exempt.
 Montana         No furlough.                 No hiring freeze.
 Nebraska        No furlough.                 No hiring freeze.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                      E-2
                  Table E-1: Status of Furlough/Hiring Freeze by DDS

        DDS            Furlough Status           Hiring Freeze Status                Remarks

 Nevada           Considering furloughs but    Hiring freeze but DDS
                  DDS likely exempt.           exempt.
 New              No furlough.                 Hiring freeze but DDS likely
 Hampshire                                     exempt.
 New Jersey       Considering furloughs, DDS   Hiring freeze for DDS.
                  status not decided.
 New Mexico       No furlough.                 Hiring freeze but DDS
                                               exempt.
 New York         No furlough.                 Hiring freeze but DDS
                                               exempt.
 North Carolina   No furlough.                 Hiring freeze but DDS
                                               exempt.
 North Dakota     No furlough.                 No hiring freeze.
 Ohio             Considering furloughs, DDS   Hiring freeze but DDS          DDS says it is under a
                  not likely exempt.           exempt.                        hiring freeze, but it has
                                                                              received approvals to
                                                                              hire.
 Oklahoma         Considering furloughs but    Considering hiring freeze
                  DDS likely exempt            but DDS likely exempt
 Oregon           Furlough in place.           Hiring freeze but DDS          Furlough for
                                               exempt.                        management staff
                                                                              from 1 to 4 days
                                                                              depending on salary
                                                                              range. Furloughs
                                                                              expected for
                                                                              represented staff but
                                                                              the number of days
                                                                              has not been finalized.
                                                                              Governor is proposing
                                                                              26 furlough days.
 Pennsylvania     Considering furloughs but    Hiring freeze but DDS
                  DDS likely exempt.           exempt.
 Puerto Rico      No furlough.                 Hiring freeze but DDS likely   Layoffs planned but
                                               exempt.                        DDS likely exempt.
 Rhode Island     No furlough.                 No hiring freeze.
 South Carolina   Considering furloughs but    Considering hiring freeze
                  DDS likely exempt.           but DDS likely exempt.
 South Dakota     No furlough.                 Hiring freeze but DDS
                                               exempt.
 Tennessee        Considering furloughs but    Hiring freeze but DDS
                  DDS likely exempt.           exempt.
 Texas            No furlough.                 No hiring freeze.
 Utah             No furlough.                 Hiring freeze but DDS
                                               exempt.



Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                        E-3
                 Table E-1: Status of Furlough/Hiring Freeze by DDS

      DDS             Furlough Status           Hiring Freeze Status            Remarks

 Vermont         Considering furloughs, DDS   No hiring freeze.
                 not likely exempt.
 Virginia        No furlough.                 No hiring freeze.
 Washington      No furlough.                 Hiring freeze for DDS.
 West Virginia   No furlough.                 No hiring freeze.
 Wisconsin       No furlough.                 Hiring freeze for DDS.
 Wyoming         No furlough.                 No hiring freeze.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)             E-4
                                                                                       Appendix F

 Methodology of Furlough Impact
 To calculate the amount of benefits that would be delayed from flowing into the
 economy on a rolling monthly basis as of February 2009, we used the methodology
 shown in the tables below. California was furloughing 2 days per month (Table F-1), but
 as of February 17, 2009, California had a tentative agreement with its union to reduce
 the furloughs from 2 days to 1 day per month (Table F-2).

     Table F-1: Effects of California’s 2-Day Furlough on Claimants and the Economy
                                   DI Only                SSI Only          Both DI and SSI         TOTAL
                               Initial    Recon       Initial    Recon       Initial    Recon
                         1
Dispositions Per Month           5,728       1,429      8,180      1,602       5,278        1,537     23,754
Allowance Rate                  45.3%      14.7%       39.5%      12.3%       26.2%         9.6%
September 29, 2008
through
                  2
February 13, 2009
Number of Cases Not                573        143         818        160         528         154       2,375
Worked Per Month
                     3
Because of Furloughs
Monthly Allowances                 259         21         323         20         138          15         776
Delayed Because of
          4
Furloughs
Amount of Monthly            $254,600     $20,606    $210,106    $12,810   $135,694     $14,482     $648,297
Benefits Delayed
                     5
Because of Furloughs
 DI – Disability Insurance
 SSI - Supplemental Security Income
 Recon - Reconsideration



 1
  SSA, DDS Performance Management Report, Claims Dispositions Report. Dispositions from
 September 29, 2008 through February 13, 2009 (20 weeks) for initial and reconsideration (recon) cases
 divided by 20 equals dispositions per week. Assuming a month has 4 weeks, this amount multiplied by
 4 equal dispositions per month.
 2
     SSA, DDS Performance Management Report, Claims Allowance Rates.
 3
     With 2 furlough days per month, there would be about a 10-percent reduction in work.
 4
  Assuming the allowance rates continue at the same level as from September 29, 2008 through
 February 13, 2009.
 5
   The average monthly DI benefit in California is $981.20 (SSA, Annual Statistical Supplement, 2007,
 issued in April 2008). In December 2007, 880,382 blind or disabled recipients in California received
 about $572,476,000—about $650.26, on average (SSA, SSI Recipients by State and County, 2007,
 issued May 2008). For this chart, we used the average DI benefit amount for beneficiaries who received
 both Title II and XVI benefits. These average benefit payments multiplied by the number of allowances
 delayed because of furloughs equals the monthly benefits delayed because of furloughs in California.
 Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                        F-1
     Table F-2: Effects of California’s 1 Day Furlough on Claimants and the Economy
                                   DI Only                SSI Only           Both DI and SSI       TOTAL
                               Initial    Recon       Initial    Recon       Initial      Recon
                         6
Dispositions Per Month           5,728       1,429      8,180      1,602       5,278       1,537     23,754
Allowance Rate                   45.3%      14.7%       39.5%      12.3%       26.2%       9.6%
September 29, 2008
through
                  7
February 13, 2009
Number of Cases Not                286         71         409         80         264         77       1,188
Worked Per Month
                     8
Because of Furloughs
Monthly Allowances                 130         11         162         10           69         7          388
Delayed Because of
          9
Furloughs
Amount of Monthly             $127,300    $10,303    $105,053     $6,405     $67,847      $7,241   $324,148
Benefits Delayed
                     10
Because of Furloughs




 6
  SSA, DDS Performance Management Report, Claims Dispositions Report. Dispositions from
 September 29, 2008 through February 13, 2009 (20 weeks) for initial and reconsideration (recon) cases
 divided by 20 equals dispositions per week. Assuming a month has 4 weeks, this amount multiplied by
 4 equals dispositions per month.
 7
     SSA, DDS Performance Management Report, Claims Allowance Rates.
 8
     With 1 furlough day per month, there would be about a 5-percent reduction in work.
 9
  Assuming the allowance rates continue at the same level as from September 29, 2008 through
 February 13, 2009.
 10
    The average monthly DI benefit in California is $981.20 (SSA, Annual Statistical Supplement, 2007,
 issued in April 2008). In December 2007, 880,382 blind or disabled recipients in California received
 about $572,476,000—about $650.26, on average (SSA, SSI Recipients by State and County, 2007,
 issued May 2008). For this chart, we used the average DI benefit amount for beneficiaries who received
 both Title II and XVI benefits. These average benefit payments multiplied by the number of allowances
 delayed because of furloughs equals the monthly benefits delayed because of furloughs in California.
 Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)                         F-2
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Acting Audit Manager

Acknowledgments
In addition to those named above:

   Katie Greenwood, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29137.




Impact of State Employee Furloughs on SSA Disability Programs (A-01-09-29137)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
